Audit Report




OIG-14-027

Audit of the Department of the Treasury’s Schedules of United
States Gold Reserves Held by Federal Reserve Banks as of
September 30, 2013 and 2012

February 7, 2014




Office of
Inspector General
Department of the Treasury
                                    DEPARTMENT OF THE TREASURY
                                          W ASHINGTON, D.C. 20220




                                             February 7, 2014
     OFFICE OF
INSPECTOR GENERAL




          MEMORANDUM FOR NANI A. COLORETTI
                         ASSISTANT SECRETARY FOR MANAGEMENT

          FROM:                 Michael Fitzgerald
                                Director, Financial Audit

          SUBJECT:              Audit of the Department of the Treasury’s Schedules of United
                                States Gold Reserves Held by Federal Reserve Banks as of
                                September 30, 2013 and 2012

          The attached report presents the results of our audits of the Department of the
          Treasury’s (Treasury) Schedules of United States Gold Reserves Held by Federal
          Reserve Banks as of September 30, 2013 and 2012 (schedules). The schedules are
          the responsibility of Treasury Management. We conducted our audits in accordance
          with U.S. generally accepted government auditing standards.

          We rendered an unmodified opinion on the schedules. Our audits identified no material
          weaknesses in internal control over financial reporting and no instances of reportable
          noncompliance with laws and regulations.

          Your staff has reviewed our report, and agreed with our conclusions. Should you have
          any questions, please contact me at (202) 927-5789, or a member of your staff may
          contact Ade Bankole, Manager, Financial Audit at (202) 927-5329. We appreciate the
          courtesy and cooperation provided to our staff during the audit.

          Attachment
Contents


SECTION I - REPORT OF THE OFFICE OF INSPECTOR GENERAL

Independent Auditor’s Report ..................................................................... 1

Report on the Schedules .................................................................................. 1

    Management’s Responsibility for the Schedules ............................................... 1

    Auditor’s Responsibility ............................................................................... 1

    Opinion      .................................................................................................. 2

Other Reporting Required by U.S. Generally Accepted Government
Auditing Standards .......................................................................................... 2

    Internal Control over Financial Reporting ......................................................... 2

    Compliance and Other Matters ...................................................................... 3

    Purpose of the Other Reporting Required by U.S. Generally Accepted Government
    Auditing Standards ..................................................................................... 4



SECTION II – THE DEPARTMENT OF THE TREASURY’S SCHEDULES OF
             UNITED STATES GOLD RESERVES HELD BY FEDERAL
             RESERVE BANKS AS OF SEPTEMBER 30, 2013 AND 2012

    Schedules of United States Gold Reserves Held by
    Federal Reserve Banks ................................................................................. 5

    Notes to the Schedules of United States Gold Reserves Held by
    Federal Reserve Banks ................................................................................. 6

APPENDICES

    Appendix 1:          Major Contributors to this Report ............................................ 8

    Appendix 2:          Report Distribution ................................................................ 9



    Audit of the Department of the Treasury’s Schedules of United States Gold                            Page i
    Reserves Held by Federal Reserve Banks as of September 30, 2013 and 2012
    (OIG-14-027)
               SECTION I -


REPORT OF THE OFFICE OF INSPECTOR GENERAL
                                                                Report of the
OIG                                                           Office of Inspector
                                                                    General
The Department of the Treasury
Office of Inspector General



                       Independent Auditor’s Report
      To the Assistant Secretary for Management:

      Report on the Schedules
      We have audited the accompanying Department of the Treasury’s (Treasury)
      Schedules of United States Gold Reserves Held by Federal Reserve Banks as of
      September 30, 2013 and 2012 (schedules) and the related notes.

      Management’s Responsibility for the Schedules

      Management is responsible for the preparation and fair presentation of these
      schedules in accordance with U.S. generally accepted accounting principles; this
      includes the design, implementation, and maintenance of internal control
      relevant to the preparation and fair presentation of the schedules that are free
      from material misstatement, whether due to fraud or error.

      Auditor’s Responsibility

      Our responsibility is to express an opinion on these schedules based on our
      audits. We conducted our audits in accordance with U.S. generally accepted
      government auditing standards. Those standards require that we plan and
      perform the audits to obtain reasonable assurance about whether the schedules
      are free from material misstatement.

      An audit involves performing procedures to obtain audit evidence about the
      amounts and disclosures in the schedules. The procedures selected depend on
      the auditor’s judgment, including the assessment of the risks of material
      misstatement of the schedules, whether due to fraud or error. In making those
      risk assessments, the auditor considers internal control relevant to Treasury’s
      preparation and fair presentation of the schedules in order to design audit
      procedures that are appropriate in the circumstances, but not for the purpose of


      Audit of the Department of the Treasury’s Schedules of United States Gold   Page 1
      Reserves Held by Federal Reserve Banks as of September 30, 2013 and 2012
      (OIG-14-027)
expressing an opinion on the effectiveness of Treasury’s internal control.
Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating
the overall presentation of the schedules.

We believe that the audit evidence we have obtained is sufficient and
appropriate to provide a basis for our audit opinion.

Opinion

In our opinion, the schedules referred to above present fairly, in all material
respects, the balances of the Department of the Treasury’s United States Gold
Reserves Held by Federal Reserve Banks as of September 30, 2013 and 2012,
in accordance with U.S. generally accepted accounting principles.

Other Reporting Required by U.S. Generally Accepted
Government Auditing Standards

Internal Control over Financial Reporting

Internal control over financial reporting is a process, affected by those charged
with governance, management, and other personnel, the objectives of which are
to provide reasonable assurance that (1) transactions are properly recorded,
processed, and summarized to permit the preparation of the schedules in
accordance with U.S. generally accepted accounting principles, and assets are
safeguarded against loss from unauthorized acquisition, use, or disposition; and
(2) transactions are executed in accordance with laws and regulations that
could have a direct and material effect on the schedules.

In planning and performing our audits of the schedules, we considered
Treasury’s internal control over financial reporting related to the schedules to
determine the audit procedures that are appropriate in the circumstances for the
purpose of expressing our opinion on the schedules, but not for the purpose of
expressing an opinion on the effectiveness of Treasury’s internal control over
financial reporting. Accordingly, we do not express an opinion on the
effectiveness of Treasury’s internal control over financial reporting.



Audit of the Department of the Treasury’s Schedules of United States Gold   Page 2
Reserves Held by Federal Reserve Banks as of September 30, 2013 and 2012
(OIG-14-027)
A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing
their assigned functions, to prevent, or detect and correct, misstatements on a
timely basis. A material weakness is a deficiency, or a combination of
deficiencies, in internal control, such that there is a reasonable possibility that a
material misstatement of the schedules will not be prevented, or detected and
corrected, on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with
governance.

Our consideration of internal control over financial reporting was for the limited
purpose described in the second paragraph of this section and was not designed
to identify all deficiencies in internal control that might be material weaknesses
or significant deficiencies. Given these limitations, during our audit we did not
identify any deficiencies in internal control over financial reporting related to the
schedules that we consider to be material weaknesses. However, material
weaknesses may exist that have not been identified.

Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected.
We also caution that projecting our evaluation to future periods is subject to the
risk that controls may become inadequate because of changes in conditions or
that the degree of compliance with controls may deteriorate.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the schedules are free
from material misstatement, we performed tests of Treasury’s compliance with
certain provisions of laws and regulations, noncompliance with which could
have a direct and material effect on the determination of schedule amounts. We
limited our tests of compliance to those provisions and did not test compliance
with all laws and regulations applicable to Treasury. We caution that
noncompliance may occur and not be detected by those tests. Providing an
opinion on compliance with laws and regulations was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our
tests of Treasury’s compliance with certain provisions of laws and regulations
disclosed no instances of noncompliance or other matters that are required to be
reported under U.S. generally accepted government auditing standards.


Audit of the Department of the Treasury’s Schedules of United States Gold     Page 3
Reserves Held by Federal Reserve Banks as of September 30, 2013 and 2012
(OIG-14-027)
Purpose of the Other Reporting Required by U.S. Generally Accepted
Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by
U.S. Generally Accepted Government Auditing Standards section is solely to
describe the scope of our testing of internal control over financial reporting and
compliance, and the result of that testing, and not to provide an opinion on the
effectiveness of Treasury’s internal control over financial reporting or on
compliance. This communication is an integral part of an audit performed in
accordance with U.S. generally accepted government auditing standards in
considering Treasury’s internal control over financial reporting and compliance.
Accordingly, this communication is not suitable for any other purpose.


                                       ******


Should you or your staff have any questions, you may contact me at
(202) 927-5789, or a member of your staff may contact Ade Bankole, Manager,
Financial Audit at (202) 927-5329. We appreciate the cooperation and courtesy
extended to our staff.




Michael Fitzgerald
Director, Financial Audit

Washington, D.C.
February 5, 2014




Audit of the Department of the Treasury’s Schedules of United States Gold   Page 4
Reserves Held by Federal Reserve Banks as of September 30, 2013 and 2012
(OIG-14-027)
                  SECTION II -

THE DEPARTMENT OF THE TREASURY’S SCHEDULES OF
  UNITED STATES GOLD RESERVES HELD BY FEDERAL
RESERVE BANKS AS OF SEPTEMBER 30, 2013 AND 2012
                      DEPARTMENT OF THE TREASURY
SCHEDULES OF UNITED STATES GOLD RESERVES HELD BY FEDERAL RESERVE BANKS
                     AS OF SEPTEMBER 30, 2013 AND 2012


                                                                      2013          2012
United States gold reserves held by Federal Reserve Banks         $ 568,007,257   $568,007,257



The accompanying notes are an integral part of these schedules.




  Audit of the Department of the Treasury’s Schedules of United States Gold                      Page 5
  Reserves Held by Federal Reserve Banks as of September 30, 2013 and 2012
  (OIG-14-027)
                     DEPARTMENT OF THE TREASURY
 NOTES TO THE SCHEDULES OF UNITED STATES GOLD RESERVES HELD BY FEDERAL
                             RESERVE BANKS
                    AS OF SEPTEMBER 30, 2013 AND 2012

Note 1 Summary of Significant Accounting Policies

   A. Reporting Entity

       The Department of the Treasury (Department) is an executive agency of the United States
       government created by an Act (1 Stat.65) on September 2, 1789. Many subsequent acts affected
       the development of the Department, delegating new duties to its charge and establishing the
       numerous bureaus and divisions that now comprise the Department. The Department is
       responsible for promoting economic prosperity and ensuring the financial security of the United
       States. In carrying out its responsibilities, the Department is engaged in a wide range of activities
       including safeguarding the United States government’s gold reserves in accordance with 31 USC
       §5117.

   B. Basis of Presentation

       These schedules have been prepared to report the United States gold reserves held by Federal
       Reserve Banks (FRBs). The accounting principles used in the preparation of the accompanying
       schedules are issued by the Federal Accounting Standards Advisory Board, as the body authorized
       to establish generally accepted accounting principles for federal government entities. Accordingly
       the accompanying schedules are prepared in accordance with United States generally accepted
       accounting principles.

Note 2 United States Gold Reserves Held by Federal Reserve Banks

       The Federal Reserve Bank of New York holds 99.98% of the total United States-owned gold bars
       and coins held by FRBs within its vault. The remaining 0.02% is held at various Federal Reserve
       Bank districts.

       United States-owned gold reserves are reported in these schedules at the value stated in 31 U.S.C.
       §5117 (statutory rate) which is $42.2222 per fine troy ounce (FTO) of gold.




  Audit of the Department of the Treasury’s Schedules of United States Gold                                    Page 6
  Reserves Held by Federal Reserve Banks as of September 30, 2013 and 2012
  (OIG-14-027)
                     DEPARTMENT OF THE TREASURY
 NOTES TO THE SCHEDULES OF UNITED STATES GOLD RESERVES HELD BY FEDERAL
                             RESERVE BANKS
                    AS OF SEPTEMBER 30, 2013 AND 2012



Note 2 United States Gold Reserves Held by Federal Reserve Banks (Continued)

       At September 30, 2013 and 2012, the market values of gold per the London Gold Fixing (PM)
       were $1,326.50 and $1,776.00 per FTO, respectively. United States gold reserves held by Federal
       Reserve Banks consisted of the following at September 30:

                                               2013
                              FTO                Statutory Value                        Market Value
       Gold Bars          13,378,981.032           $ 564,890,013                     $ 17,747,218,339
       Gold Coins             73,829.500           $ 3,117,244                       $     97,934,832
       Total             $13,452,810.532            $568,007,257                      $17,845,153,171


                                               2012
                              FTO                Statutory Value                        Market Value
       Gold Bars          13,378,981.032           $ 564,890,013                     $ 23,761,070,313
       Gold Coins             73,829.500           $ 3,117,244                       $   131,121,192
       Total             $13,452,810.532            $568,007,257                      $23,892,191,505




  Audit of the Department of the Treasury’s Schedules of United States Gold                              Page 7
  Reserves Held by Federal Reserve Banks as of September 30, 2013 and 2012
  (OIG-14-027)
APPENDICES
  Appendix 1
  Major Contributors to this Report




  Financial Audit Division

          Michael Fitzgerald, Director
          Ade Bankole, Manager
          Rafael Cumba, Auditor-in-Charge
          Robert Hong, Auditor
          Kevin Guishard, Referencer




Audit of the Department of the Treasury’s Schedules of United States Gold   Page 8
Reserves Held by Federal Reserve Banks as of September 30, 2013 and 2012
(OIG-14-027)
        Appendix 2
        Report Distribution




        The Department of the Treasury

                Treasurer of the United States
                Deputy Chief Financial Officer
                Director, Financial Reporting and Policy

        United States Mint

                Deputy Director
                Chief Financial Officer




Audit of the Department of the Treasury’s Schedules of United States Gold   Page 9
Reserves Held by Federal Reserve Banks as of September 30, 2013 and 2012
(OIG-14-027)
